I

BROWN FOX

Supreme Court, U.S.
FILED

JUN 0 7 2021
OFFICE OF THE CLERK

Eric C. Wood, Partner
Direct Dial: (214) 367-7501
Email: ericabrownfoxlaw.com

1,1)-‘1019
June 7, 2021

Via First-Class Mail
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Todd Phillippi, Petitioner v. Humble Design, L.L.C. and Warren David Humble,
Respondents; In the Supreme Court of the United States
Petition for Writ of Certiorari

To the Honorable Supreme Court of the United States:
This firm represents Respondents Humble Design, L.L.C. and Warren David Humble
(collectively "Respondents"). Respondents have received a copy of the Petition for Writ of
Certiorari submitted by Todd Phillippi on June 4, 2021 ("Petition").
In addition to the Petition being untimely filed, the case does not warrant review by the
Supreme Court. Therefore, Respondents do not intend to respond to the Petition unless requested
to do so by the Court.
If there, ,are any questions, please do not hesitate to contact me at (214) 367-7501.
Sincerely,

Eric C. Wood
cc:

Via First-Class Mail
Todd Phillippi
Petitioner pro se
411 North 8th Street
Midlothian, TX 76065

RECEIVED
JUN 152021
OFFICE OF THE CLERK
SUPREME COURT U.S.

5556Grani'te Parkway, Suite 175, Plano, texas 75024 JS 972.707.1860 OE) 214.327.5001
B,RO.WNF,OXLAW.COM

